           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     ADMINISTRATIVE PAYMENTS
           VENDOR FILE


    September 2012   A-06-11-01139




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

    Conduct and supervise independent and objective audits and
       investigations relating to agency programs and operations.
      Promote economy, effectiveness, and efficiency within the agency.
      Prevent and detect fraud, waste, and abuse in agency programs and
       operations.
      Review and make recommendations regarding existing and proposed
       legislation and regulations relating to agency programs and operations.
      Keep the agency head and the Congress fully and currently informed of
       problems in agency programs and operations.

   To ensure objectivity, the IG Act empowers the IG with:

    Independence to determine what reviews to perform.
    Access to all information necessary for the reviews.
    Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                         SOCIAL SECURITY
MEMORANDUM

Date:   September 14, 2012                                                       Refer To:

To:     The Commissioner

From:   Inspector General

Subject: Administrative Payments Vendor File (A-06-11-01139)



        OBJECTIVE
        Our objective was to determine whether the Social Security Administration’s (SSA)
        vendor file controls were effective to mitigate the risk of improper payments.

        BACKGROUND
        The Social Security Online Accounting and Reporting System (SSOARS) is SSA’s
        system for financial reporting. SSA processes vendor payments through the SSOARS
        accounts payable module. The SSOARS Supplier File includes payment delivery
        records for SSA employees, State and local government agencies, and corporate and
        individual vendors who provide goods or services to SSA. This vendor file contains a
        complete record for each vendor and SSA employee. The file includes, but is not
        limited to, the vendor’s first and last name, address and telephone number, bank routing
        and account number, and tax identification number. SSOARS requires vendor file
        records to process payments and accounting transactions. 1

        Data are input into the SSOARS vendor file either manually or via an electronic
        interface. Central Contractor Registration (CCR) is the vendor database for the
        Government 2 and the primary interface used to update the vendor file in SSOARS.
        Both current and potential Government vendors are required to register in CCR to be
        awarded Federal contracts. Vendors must update or renew their registration annually to
        maintain active status. 3




        1
            SSA Accounting Manual, Chapter 5-140-01, page 3 (August 25, 2011).
        2
            SSA Accounting Manual, Chapter 5-140-02, page 1 ( May 31, 2010).
        3
            Id.
Page 2 - The Commissioner


SSA’s Division of Administrative Payment Services (DAPS) directs SSA’s administrative
payment operations and develops related operating policies and procedures. 4 Within
DAPS, the Electronic Payments Team is responsible for accurately entering vendor
information into the vendor file from various documents that authorize SSA to make
payments. The vendor file is also updated through inbound batch transactions that
originate from other systems.

In July 2011, we obtained an electronic copy of SSA’s SSOARS vendor file. The file
included both active and inactive records established for 252,544 third-party vendors.
The records included the vendor’s name, address, telephone number, bank routing and
account numbers, and tax identification number. In Fiscal Year 2011, DAPS processed
about 1.6 million vendor transactions resulting in payments totaling approximately
$1.8 billion. Appendix B provides further details on our scope and methodology.

RESULTS OF REVIEW
SSA’s vendor file controls were effective to mitigate the risk of improper payments.
Established controls help ensure active vendor files contained valid vendor information
and prevented creation of fictitious vendor files.

We conducted various tests of the vendor file data to determine whether the controls
over the file were working as intended. For example, we identified and reviewed cases
where multiple vendor records listed the same (1) business name, (2) address,
(3) telephone number, (4) taxpayer identification number, or (5) bank routing and
account numbers. We also identified and reviewed cases where multiple vendor
records listed the same vendor number but different (1) business addresses,
(2) business telephone numbers, (3) taxpayer identification numbers, and (4) bank
routing and account numbers. Our review of these cases revealed that, in every
instance, available information indicated the vendor records were valid.

In addition, we identified and reviewed cases where vendor records listed (1) an SSA
email address, (2) a taxpayer identification number, (3) a bank routing and account
number, or (4) a residential address that matched employee information in the vendor
file. All email match cases identified involved situations where SSA assigned email
addresses to Federal disability determination services medical consultants working in
SSA offices. Every other case reviewed involved situations where current SSA
employees had previously been SSA vendors, or current SSA vendors had previously
been SSA employees. In each case, we confirmed that only one vendor file record was
active.




4
    SSA Accounting Manual, Chapter 05-00-01, page 1 (March 08, 2011).
Page 3 - The Commissioner


CONCLUSION
Our review identified no reportable conditions. As such, we make no recommendations.

AGENCY COMMENTS
SSA was pleased with the findings and had no further comment. See Appendix C for
the full text of SSA comments.




                                      Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Agency Comments
APPENDIX D – OIG Contacts and Staff Acknowledgments
                                                         Appendix A

Acronyms

CCR      Central Contractor Registration
DAPS     Division of Administrative Payment Services
SSA      Social Security Administration
SSOARS   Social Security Online Accounting and Reporting System
                                                                                  Appendix B

Scope and Methodology
To accomplish our objective, we:

•   Reviewed applicable Federal laws, Social Security Administration (SSA) policies and
    procedures, and the Social Security Online Accounting and Reporting System
    (SSOARS) Operations Guide.

•   Reviewed SSA’s Accounting Manual to gain an understanding of internal controls
    applicable to the Accounts Payables Module of SSOARS.

•   Reviewed a prior internal control review of SSOARS conducted by an outside firm. 1

•   Interviewed SSA staff to obtain an understanding of the administrative payments
    process.

We conducted our audit between June 2011 and June 2012 in Dallas, Texas. We
determined the data used for this audit were sufficiently reliable to meet our audit
objective. The entities audited were the Division of Administrative Payment Services,
Office of Financial Policy and Operations, and Office of Financial/Administrative
Systems. We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe the evidence
obtained provides a reasonable basis for our findings and conclusion based on our audit
objective.




1
 Deloitte & Touche LLP, Social Security Administration, Final Report, Social Security Online Accounting
and Reporting System, Contract No. GS-23F-8132H, June 2010.
                                                                                     Appendix C

        Agency Comments




                                      SOCIAL SECURITY

MEMORANDUM


Date:   September 4, 2012                                                       Refer To: S1J-3

To:     Patrick P. O’Carroll, Jr.
        Inspector General

From:   Dean S. Landis /s/
        Deputy Chief of Staff

Subject: Office of the Inspector General Draft Report, “Administrative Payments Vendor File”
        (A-06-11-01139)--INFORMATION

        Thank you for the opportunity to review the draft report. We are pleased with the findings and
        have no further comment.

        Please let me know if we can be of further assistance. You may direct staff inquiries to
        Amy Thompson at (410) 966-0569.
                                                                         Appendix D

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Ron Gunia, Director

   Jason Arrington, Audit Manager

Acknowledgments

In addition to those named above:

   Teresa Williams, Senior Auditor

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-06-11-01139.
                            DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government
Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions
and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
